                                                                    EMPLOYMENT AND TRAINING
                                                                    ADMINISTRATION
Department of Labor
                      Office of Inspector General—Office of Audit




                                                                    DOL HAS NOT MAINTAINED
                                                                    ACCOUNTABILITY OVER
                                                                    EQUITY IN REAL PROPERTY
                                                                    HELD BY STATES




                                                                                    Date Issued: September 30, 2004
                                                                                 Report Number: 06-04-002-03-325
Department of Labor
Office of Inspector General                  SEPTEMBER 2004
Office of Audit
                                             DOL HAS NOT
BRIEFLY…                                     MAINTAINED
                                             ACCOUNTABILITY OVER
Highlights of Report Number: 06-04-002-      EQUITY IN REAL
03-325, a report to the Assistant
Secretary for Employment and Training.       PROPERTY HELD BY
September 30, 2004.
                                             STATES
WHY READ THE REPORT
                                             WHAT OIG FOUND
Recent events have focused attention on      We found that the ETA had not established
the importance of real property              adequate management controls over accounting
management. The Government                   for the DOL’s equity interest in SWAs’ real
Accountability Office designated Federal     properties. Specifically:
real property as a high-risk area in
January 2003. On February 4, 2004, the           •   ETA’s inventory of SWA property was
President issued Executive Order 13327,              neither accurate nor complete.
“Federal Real Property Asset                         California, Georgia, Texas, and Utah, as
Management.” The Department of Labor                 of September 30, 2001, had identified 61
(DOL) has a significant investment in real           properties where ETA’s real property
properties owned by State Workforce                  inventory understated DOL’s equity by a
Agencies (SWA) that is not being properly            net $30.2 million.
accounted for at the Federal level.
                                                     ETA did not ensure the states properly
                                                     handled the proceeds from disposing of
WHY OIG DID THE AUDIT
                                                     SWA properties with DOL equity. Three
                                                     of the states collectively still had $1.9
Two prior Office of Inspector General                million of DOL equity cash on hand and
(OIG) audit reports in 1990 and 1997                 another state used $3.6 million to speed
identified insufficient Employment and               up amortization of existing properties
Training Administration (ETA) oversight of           and pay prior period costs not previously
the DOL’s equity interest in state-owned             charged because of budget limitations.
real property.

The ETA’s response to the 1997 audit
                                             WHAT OIG RECOMMENDED
report accepted the OIG’s finding that
$381 million of DOL funds had been used      We recommended ETA implement controls that
as of September 30, 1996, to pay a           establish verifiable values for its real property
portion of the $711 million acquisition      inventory and provide monitoring and follow up
costs of 453 state-owned properties. ETA     on all significant differences between ETA’s
indicated the report’s information would     established inventory of equity values and the
be used to establish a new baseline for      states reported values.
the DOL inventory. However, a new
baseline was not established, and the        We also recommended ETA ensure equity cash
inventory is again outdated.                 from SWA real property dispositions are
                                             submitted for deposit to the U.S. Treasury, as
                                             required, unless ETA has documented approval of
READ THE FULL REPORT                         specific state plans for using the proceeds for
                                             bona fide replacement property.
The full report is available at:
http://www.oig.dol.gov/public/reports/oa/
2004/06-04-002-03-325                        ETA generally agreed with our recommendations.
                                             U.S. Department of Labor – Office of Inspector General




TABLE OF CONTENTS
Executive Summary............................................................................................... i

Assistant Inspector General’s Report ................................................................... 1

Finding 1: ETA’s inventory of SWA property with DOL equity is neither
           accurate nor complete ........................................................................ 1

                  Recommendations .......................................................................... 8

Finding 2: ETA does not ensure the states properly handle the proceeds from
           disposing of SWA properties with DOL equity. ................................... 9

                   Recommendations........................................................................ 14

Exhibits

Exhibit A-1 Comparison of California OIG-OA Amounts with ETA Inventory ...... 16

Exhibit A-2 Comparison of Georgia OIG-OA Amounts with ETA Inventory ........ 20

Exhibit A-3 Comparison of Texas OIG-OA Amounts with ETA Inventory ........... 23

Exhibit A-4 Comparison of Utah OIG-OA Amounts with ETA Inventory ............. 25

Appendices

Appendix A - Background ................................................................................... 29

Appendix B - Scope, Methodology, and Criteria ................................................. 33

Appendix C – Acronyms and Abbreviations ...................................................... 35

Appendix D – ETA’s Response to Draft Report ................................................. 37




Dol Has Not Maintained Accountability Over
Equity In Real Property Held By States
Report No.: 06-04-002-03-325
                                      U.S. Department of Labor – Office of Inspector General




EXECUTIVE SUMMARY
The Assistant Secretary for Employment and Training, the Chief Financial
Officer, and the Assistant Secretary for Administration and Management provided
assurances in April 2000, January 2001, and February 2001, that the
Employment and Training Administration’s (ETA) State Workforce Agencies
(SWA)1 real property inventory system was operating effectively. Recent events
have focused attention on the importance of real property management. The
Government Accountability Office designated federal real property as a high-risk
area in January 2003. On February 4, 2004, the President issued Executive
Order 13327, “Federal Real Property Asset Management.” In conjunction with
the Executive Order, the Office of Management and Budget (OMB) has added an
initiative to the President’s Management Agenda aimed at improving stewardship
of Federal real property assets.

The OIG performed an audit to assess ETA’s management controls over Federal
equity in SWA real property. To meet our objective, we considered the following
questions:

      1. Does ETA maintain management controls that will ensure an accurate and
         complete accounting for Federal equity in SWA real properties?

      2. Does ETA have management controls that will ensure the states properly
         handle the proceeds from disposing of SWA properties with DOL equity?

Audit Results:

We found that the ETA had not established adequate management controls over
accounting for the Department of Labor’s (DOL) equity interest in SWAs’ real
properties. Specifically:

           ETA’s inventory of SWA property was neither accurate nor complete (see
           page 3).
           ETA did not ensure the states properly handle the proceeds from
           disposing of SWA properties with DOL equity (see page 9).

Based on our audit in the states of California, Georgia, Texas, and Utah, as of
September 30, 2001, we identified 61 properties where ETA’s real property
inventory understated DOL’s equity by a net $30.2 million. ETA’s inventory:

          excluded entirely, or showed $0 equity for, 14 properties with $17.3 million
          of DOL equity,
          included two properties with $.5 million equity even though these
          properties no longer have DOL equity, and

1
    Formerly called State Employment Security Agencies (SESAs)

DOL Has Not Maintained Accountability Over                                                 i
Equity In Real Property Held By States
Report No.: 06-04-002-03-325
U.S. Department of Labor – Office of Inspector General



        included 45 properties for which ETA’s value of DOL’s equity was
        understated a net $13.4 million.

Furthermore, all four states we audited either held the proceeds from sale of DOL
equity property for extended periods with no plans for procuring replacement
properties, or used the proceeds to speed up the amortization of the acquisition
costs of other properties. Georgia, Utah, and Texas collectively still had $1.9
million DOL equity cash on hand at the time of our fieldwork, without specific
plans for transferring the equity to replacement properties. California, with ETA
approval, used $3.6 million of DOL equity proceeds from the sale of several
properties to accelerate the amortization of existing real properties and pay prior
period space costs not previously recovered because of budget limitations.

Recommendations:

Consistent with past assurances regarding real property and in light of the
Federal Real Property Asset Management Executive Order and OMB initiative,
we recommend the Assistant Secretary for Employment and Training make
control and management of real property a high priority.

Specifically, we recommend ETA implement controls over data validity and
reliability that:

     1. establish verifiable values for its real property inventory using available
        information such as the OIG’s 1997 inventory report and projected equity
        schedules that were agreed to by ETA and the states;
     2. require the states to provide explanations for differences between the
        states’ annual certified inventory valuations and the OIG’s 1997 report’s
        estimated valuations for the same properties for the same period. (The
        OIG’s estimated valuations were generally based on ETA-approved
        amortization schedules; consequently, unless ETA has amended the
        amortization schedules, the valuations should be similar.);
     3. provide monitoring and follow up on all significant differences between
        ETA’s established inventory of equity values and the states reported
        values; and
     4. provide states current certification instructions that are clear and specific,
        including a requirement that the states submit documentation regarding
        properties added to or removed from the real property inventory list.

In addition, we recommend ETA monitor states’ compliance with applicable
requirements by implementing procedures to ensure states holding DOL equity
cash from SWA real property dispositions:

     5. are identified;
     6. submit the funds to ETA for deposit to the U.S. Treasury, as required,
        unless ETA has documented approval of specific state plans for using the
ii                                          DOL Has Not Maintained Accountability Over
                                            Equity In Real Property Held By States
                                            Report No.: 06-04-002-03-325
                                 U.S. Department of Labor – Office of Inspector General



      proceeds for bona fide replacement property in a reasonable timeframe
      and that will ensure ETA can monitor states’ handling of future sales
      proceeds from SWA property dispositions;
   7. do not use any DOL equity cash from property sales to accelerate
      amortization of properties with existing amortization schedules; and
   8. do not use any DOL equity cash to recover prior period space costs not
      recovered in accordance with existing amortization schedules because of
      a SWA’s decision to use its grant funds for other purposes and delay
      amortization of its space costs because of budget limitations.

ETA’s Response:

ETA generally agrees with the overall thrust of the audit report but did not
address our specific recommendations. ETA stated that maintaining an up-to-
date inventory and valuation of SWA property and managing the use and
disposition of SWA real property continue to present challenges to states and
ETA.

ETA acknowledges that although it has been updating state property records
every 2 years with any information the states provided since 1999, not all records
are current. ETA indicated that a soon-to-be issued Training and Employment
Guidance Letter will require that states report any changes/updates to their real
property data by November 30, 2004. ETA also plans to issue a Field
Memorandum to ETA Regional Administrators requiring them to follow up and
assure that all states update their real property inventory records.

A copy of ETA’s complete draft report response is included in this report as
Appendix D.

Auditor’s Conclusion:

Requiring states to change/update their property data by November 30, 2004,
and having Regional Administrators follow up to assure they do so is a positive
step. However, if a more proactive role as outlined in recommendations one
through four is not taken to assure the accuracy of the information provided, ETA
will most probably get what it has been getting since 1999; i.e., inaccurate,
incomplete information. Recommendations one through four are unresolved.

As ETA’s response to the draft report did not specifically address recommendations
five through eight, the recommendations are unresolved.




DOL Has Not Maintained Accountability Over                                           iii
Equity In Real Property Held By States
Report No.: 06-04-002-03-325
U.S. Department of Labor                        Office of Inspector General
                                                Washington, DC. 20210




                         Assistant Inspector General’s Report

Emily Stover DeRocco
Assistant Secretary for
 Employment and Training

We have audited the Employment and Training Administration’s (ETA)
management controls in maintaining accountability for the Federal equity in State
Workforce Agencies’ (SWA) real property as of September 30, 2001. In order to
meet the objective of our audit, we considered the following questions:

      1. Does ETA maintain management controls that will ensure an accurate,
         complete accounting for Federal equity in SWA real properties?

      2. Does ETA have management controls that will ensure the states properly
         handle the proceeds from disposing of SWA properties with DOL equity?

We conducted our audit in accordance with Government Auditing Standards for
performance audits. Our audit scope, methodology, and criteria are detailed in
Appendix B.

FINDINGS AND RECOMMENDATIONS

Finding 1: ETA’s inventory of SWA property with DOL equity is neither
accurate nor complete.

In the four states included in our audit, we found that ETA has not established
effective procedures to keep the inventory of DOL equity in SWA real properties
reasonably accurate or complete despite:

          Two prior OIG reports2 that demonstrated the inadequacy of the ETA’s
          inventory system;

          Both ETA and DOL managements’ assurances that ETA’s accounting for
          DOL’s equity in SWA real properties was no longer a critical weakness
          and that the audit findings from the OIG’s 1997 report should be closed;
          and
2
    Report Nos. 04-90-002-03-325 (January 25, 1990) and 06-97-056-03-325 (September 30, 1997)

DOL Has Not Maintained Accountability Over                                                  1
Equity In Real Property Held By States
Report No.: 06-04-002-03-325
U.S. Department of Labor – Office of Inspector General




       Both ETA and DOL managements’ assurances that maintaining the SWA
       real property inventory and obtaining state certifications is now done as
       part of ETA’s regular work and should not be a problem in future years.

As a result of the first OIG real property audit in 1990, ETA implemented a
property inventory but did not keep the inventory current. In the FY 1995 DOL
financial statement audit report3 (June 1996), the OIG reported problems with
ETA’s accounting for DOL equity in SWA real property. Furthermore, the
Department included the SWA inventory accountability problem in the 1996
FMFIA4 report (December 1996). Consequently, the OIG completed another
SWA real property audit in 1997 to compile an update of DOL equity in the 53
SWAs’ real properties to assist ETA in updating its inventory. As a result of the
second OIG real property audit, ETA agreed to use the information “to establish a
new baseline for the DOL inventory.”

In April 2000, as part of the resolution process for the 1997 audit, ETA told the
Department and Congress that it had established updated inventory processes to
provide the amount of DOL equity in SWAs’ real properties on a current basis.
This ETA commitment provided the basis for the OIG subsequently closing the
1997 audit recommendation regarding ETA’s accounting for $381 million of DOL
equity (at cost basis) as of September 30, 1996.

Both the 1990 and 1997 OIG reports reported that ETA did not maintain a
reasonably accurate inventory of SWA properties with DOL equity, including the
accurate amounts of DOL equity in those properties. Furthermore, we reported
that ETA was not requiring the SWAs to either return proceeds from the
disposition of properties with DOL equity or reinvest those proceeds in
replacement properties.

Despite assurances from the Assistant Secretary for Employment and Training,
the Chief Financial Officer, and the Assistant Secretary for Administration and
Management in April 2000, January 2001, and February 2001, that ETA’s
inventory system was operating effectively, our audit of ETA’s inventory of SWA
properties with DOL equity for California, Georgia, Utah, and Texas revealed that
ETA’s inventory procedures in those states for SWA real property are still
inadequate. It would not be unreasonable to conclude that if all states’
processes for accounting for ETA real property equity are the same as the four
states in our audit, then ETA inventory procedures for those states would also be
inadequate.




3
  Report No. 12-96-007-13-001 (May 1, 1996)
4
  Federal Managers’ Financial Integrity Act of 1982
2                                                 DOL Has Not Maintained Accountability Over
                                                  Equity In Real Property Held By States
                                                  Report No.: 06-04-002-03-325
                                 U.S. Department of Labor – Office of Inspector General



Although we issued ETA our latest compilation of DOL equity in SWA properties
on September 30,1997, ETA did not update its inventory to reflect DOL equity (as
of September 30, 1996) and did not implement its annual certification procedures
until October 2000. Furthermore, even after the first year’s state certifications,
ETA’s inventory system still failed to include all properties with DOL equity,
included properties that states had already disposed of, and did not include the
proper amounts of DOL equity.

In October 2001, ETA again requested that SWAs certify DOL’s equity in SWA
real properties. Of the four states’ inventories we audited, only one state’s
(Texas) inventory certification – which purported to reflect DOL equity as of
September 30, 2001 -- reflected DOL equity at least equal to the amounts of DOL
equity at September 30, 1996 (as the OIG reported in 1997). The ETA National
Office affirmed that ETA did not use the September 30, 1996, OIG audited equity
-- with which almost all 53 SWAs agreed with -- to update its inventory despite
ETA’s response to our 1997 audit report that indicated it would do so. ETA’s
1997 response stated:

       ETA is willing to accept the OIG finding that $381 million of DOL
       funds had been used as of September 30, 1996 to pay a portion of
       the $711 million acquisition cost of 453 properties. This
       information will be used to establish a new baseline for the
       DOL inventory. . . . [Emphasis added.]

We reviewed ETA’s inventory and certifications for California, Georgia, Utah, and
Texas as of September 30, 2001, and found that ETA’s inventory excluded
property acquisitions in three states, included properties no longer on one state’s
inventory, and included ETA’s equity compilations that differed significantly with
the OIG-audited amounts as of September 30, 2001, in all four states. For these
four states, we determined differences between ETA’s and OIG’s audited DOL
equity for 61 properties with a net underreporting of $30.2 million in DOL equity
on ETA’s inventory.




DOL Has Not Maintained Accountability Over                                           3
Equity In Real Property Held By States
Report No.: 06-04-002-03-325
U.S. Department of Labor – Office of Inspector General



The differences between ETA’s and the OIG’s audited DOL equity are shown in
the following chart:


                                                                                Properties on Both
                                                            Properties ETA        ETA and State
                                       Properties ETA        Included on         Inventories With
                                      Excluded Entirely   Inventory Although     ETA’s Inventory
                 Total Properties      or Showed $0          Property No          Underreporting
    State              With            Federal Equity        Longer Has           Federal Equity
                    Inventory                               Federal Equity
                   Differences
                 # Prop      Net $    # Prop          $    # Prop          $     # Prop      Net $
California           17      $ 6.8         4      $ 6.5         2   ($.5 mil)        11      $ .9
                                mil                 mil                                        mil
Georgia              15      $11.0          6     $ 2.8                               9      $ 8.1
                                mil                 mil                                        mil
Texas                17      $ 3.8                                                   17      $ 3.8
                                mil                                                            mil
Utah                 12      $ 8.6          4     $ 8.0                               8      $ .6
                                mil                 mil                                        mil
    Totals           61      $30.2        14      $17.3         2   ($.5 mil)        45      $13.4
                                mil                 mil                                        mil

A comparison of ETA’s inventory with the OIG-audited data as of September 30,
2001, is presented for each of the four states in exhibits A-1 through A-4.

Highlights of specific problems we identified with ETA’s inventory, by state, are
presented below:

CALIFORNIA

ETA’s inventory excluded equity in four properties with $6.5 million in DOL
equity.

             OIG reported equity in two of the four properties in our 1997 report, yet
             ETA’s inventory excluded one property entirely and showed $0 DOL
             equity in the other.

             In 1991, the SWA had reduced DOL equity in the third property to zero.
             ETA subsequently approved the use of Federal funds for a capital
             improvement to this building. The SWA completed the capital
             improvement in November 1996 and reinstated the property to its
             inventory. However, ETA did not record the equity on it inventory.

             The fourth property was part of ETA’s audit resolution of the 1997 audit.
             ETA’s inventory shows the property with $0 DOL equity even though
             equity was transferred into the property as part of ETA’s approved audit
             resolution.
4                                                  DOL Has Not Maintained Accountability Over
                                                   Equity In Real Property Held By States
                                                   Report No.: 06-04-002-03-325
                                 U.S. Department of Labor – Office of Inspector General




Also, ETA’s inventory included $.5 million DOL equity in two properties not on the
State’s inventory. ETA should have been aware of the lack of DOL equity in
these two properties:

       San Bernardino – DOL equity of $173,031 had been reduced to zero
       during ETA’s audit resolution of the 1997 audit finding. The equity
       reduction was based on the lack of SWA occupancy in the building.

       Salinas – DOL equity of $369,823 was specifically relinquished to the
       State in the DOL’s appropriation bill in 1999.

GEORGIA

ETA’s inventory:

       Excluded entirely four properties with $2.6 million in DOL equity even
       though our 1997 report reported equity in all four properties.

       Included two properties but showed $0 DOL equity even though DOL has
       $.2 million equity in the properties. The OIG reported DOL equity in these
       properties in 1997. The State’s 2001 certifications of ETA’s inventory did
       not show DOL equity in these properties; yet, the State’s property records
       show the DOL equity.

TEXAS

ETA’s inventory excluded $3.8 million in unreported DOL equity between
September 30, 1996, and September 30, 2001. Prior to ETA’s request for the
State’s 2001 inventory certification, the Dallas regional ETA staff updated ETA’s
national inventory database using the OIG-audited DOL equity in Texas’
properties as of September 30, 1996, as reported in the OIG’s 1997 audit report.
Since ETA’s inventory at September 30, 2001, reflected Texas’ DOL equity as of
September 30, 1996, Texas’ 2001 certification to ETA certified the balances on
ETA’s inventory (as of September 30, 1996). This improper certification occurred
because ETA’s instructions were incomplete and only requested the State to
certify in 2001 the equity amounts listed on the schedules provided to the State,
which were as of September 30, 1996, and identified as such.

UTAH

ETA’s inventory excluded four Utah properties with $8 million in DOL equity.
Utah confirmed that the Salt Lake City Temporary Placement Office has $.3
million DOL equity as reported in the1997 OIG report. The State disputes the
accrual of $7.7 million in Federal equity in the other three Salt Lake City
properties – Administration Building, Metro Employment Center, and South Salt

DOL Has Not Maintained Accountability Over                                           5
Equity In Real Property Held By States
Report No.: 06-04-002-03-325
U.S. Department of Labor – Office of Inspector General



Lake County Employment Center. Yet, as discussed below, the OIG contends
equity has accrued in these three properties.

In a November 3, 1994, letter, a former ETA Regional Administrator informed the
Utah SWA that based on State-submitted materials, the ETA national office had
approved payment of allowable interest and depreciation costs for employment
security grants without any accrual of equity in the three Salt Lake City properties
that we determined had $7.7 million DOL equity as of September 30, 2001. We
concluded in 1997 and on this audit that ETA’s determination that no Federal
equity exists in these properties is wrong in that it was based on Utah’s
misrepresentations and ETA’s misinterpretation of the facts.

In our 1997 Utah real property final report,5 we reported that Utah was charging
bond amortization -- not depreciation and interest costs the SWA contended it
was charging -- to the UI/ES grants to retire the properties financing bonds; thus,
DOL has acquired, and is continuing to acquire, equity in the properties. The
ETA’s initial determination (September 20, 1999) for the 1997 OIG finding stated:

          The State’s contention that DOL has no equity in the building
          will have to be supported with additional documentation, since
          there appears to be a minor difference in the amount that the
          State charged DOL under the allowable rental rate system and
          what was actually paid for interest plus depreciation.

Although ETA issued an initial determination in 1999 requiring additional
information from the State, ETA never issued a final determination, and the three
properties with $7.7 million in DOL equity as of September 30, 2001, are still not
on ETA’s inventory.

------------------------------------------------------------------------------------------------------------

We believe ETA’s inventory is significantly inaccurate for several reasons:

          ETA did not update its baseline inventory in 1997 with the OIG-provided
          DOL equity as of September 30, 1996, even though almost all SWAs
          accepted the OIG-reported equity information as correct in 1997, and ETA
          assured the OIG that it would use the information to update its inventory.

          Because this program has not been a priority for ETA management, some
          of the properties on ETA’s inventory as of September 30, 2001, may not
          have been updated for over 13 years. ETA first established the inventory
          based on our 1990 audit report that reported DOL equity in SWA real
          properties as of September 30, 1988. Because ETA did not routinely
          update its inventory after it was initially established, did not update the

5
    Report No. 06-97-023-03-325 (June 5, 1997)
6                                                     DOL Has Not Maintained Accountability Over
                                                      Equity In Real Property Held By States
                                                      Report No.: 06-04-002-03-325
                                      U.S. Department of Labor – Office of Inspector General



        inventory based on the OIG’s 1997 audit report, and did not ask states for
        inventory certifications prior to October 2000, ETA’s inventory has not
        been properly updated in well over a decade.

        o In 2000, only one (Dallas) of the four regional ETA offices covered in
          our audit had updated the national office inventory records for a state
          (Texas) in the region to reflect properties and DOL equity as of
          September 30, 1996, by using the OIG’s 1997 compilation.

        o The inventory for properties in the other three states we audited had
          not been consistently updated and ETA’s national office staff indicated
          that they did not attempt to reconcile or obtain explanations for
          differences between the OIG’s audit of equity amounts as of
          September 30, 1996, and the information subsequently provided by the
          states.

        ETA did not provide adequate instructions to the states regarding either
        the certifications’ reconciliation and corrections process needed, or the
        format needed for reporting. After the nationwide OIG update of DOL and
        Reed Act equity was issued in 1997, ETA concluded that its inventory
        records for state properties should be based on adjustments or updates
        provided by the states, rather than the OIG’s extensive audited data.
        ETA’s national office did not provide any information that it followed up
        with the states to obtain property-specific explanations regarding
        differences between the 1997 OIG compilation and the listings
        subsequently provided by the states in either 2000 or 2001. Most states
        agreed with the 1997 OIG audit compilation of DOL equity in SWA real
        properties.

        ETA transferred responsibility for tracking DOL equity amounts in SWA
        real property from its regional offices to the national office. However,
        ETA’s national office maintained a hands-off policy with regard to following
        up on potential discrepancies in the state submissions. Furthermore, the
        ETA regions were still responsible for keeping documentation necessary
        to support changes in the ETA inventory records because the information
        used to make the changes requested by the states was destroyed in the
        national office after requested changes were completed.

        ETA has not taken a proactive role in administering SWA real property
        because it does not believe it will be necessary to maintain the inventory
        system for SWA property in the future. This assumes Congress passes
        one of two Administration proposals (Workforce Investment Act
        reauthorization and amendments to the UI program6) that would relinquish

6
  In testimony about the Department’s FY 2005 budget before the House Ways and Means
Committee on March 4, 2004, the Secretary of Labor indicated that the Department “will defer
legislation on reforming the UI system until the states’ budget outlook improves.”

DOL Has Not Maintained Accountability Over                                                     7
Equity In Real Property Held By States
Report No.: 06-04-002-03-325
U.S. Department of Labor – Office of Inspector General



       to the states all DOL equity in SWAs’ properties that was acquired under
       UI or Wagner-Peyser grants.

DOL’s equity interest of $381 million as of September 30, 1996 -- and most
probably significantly higher 8 years later -- represents a significant asset for
ETA’s SWA grant programs that warrants ETA providing more diligence over
maintaining current, accurate accounting records.

Recommendations:

Consistent with past assurances regarding real property and in light of the
Federal Real Property Asset Management Executive Order and OMB initiative,
we recommend the Assistant Secretary for Employment and Training make
control and management of real property a high priority.

Specifically, we recommend ETA implement controls over data validity and
reliability that:

    1. establish verifiable values for its real property inventory using available
       information such as the OIG’s 1997 inventory report and projected equity
       schedules that were agreed to by ETA and the states;
    2. require the states to provide explanations for differences between the
       states’ annual certified inventory valuations and the OIG’s 1997 report’s
       estimated valuations for the same properties for the same period. (The
       OIG’s estimated valuations were generally based on ETA-approved
       amortization schedules; consequently, unless ETA has amended the
       amortization schedules, the valuations should be similar.);
    3. provide monitoring and follow up on all significant differences between
       ETA’s established inventory of equity values and the states reported
       values; and
    4. provide states current certification instructions that are clear and specific,
       including a requirement that the states submit documentation regarding
       properties added or removed from the real property inventory list.

ETA’s Response:

ETA generally agrees with the overall thrust of the audit report but did not
address specific recommendations.

ETA indicated that every 2 years it asks the states to review and update ETA’s
property record’s. ETA acknowledges that although it has been updating state
property records with any information the states provided since 1999, not all
records are current. ETA indicated that a soon-to-be issued Training and
Employment Guidance Letter will require that states report any changes/updates
to their real property data by November 30, 2004. ETA also plans to issue a

8                                           DOL Has Not Maintained Accountability Over
                                            Equity In Real Property Held By States
                                            Report No.: 06-04-002-03-325
                                 U.S. Department of Labor – Office of Inspector General



Field Memorandum to ETA Regional Administrators requiring them to follow up
and assure that all states update their real property inventory records.

Auditor’s Conclusion:

Requiring states to change/update their property data by November 30, 2004,
and having Regional Administrators follow up to assure they do so is a positive
step. However, if a more proactive role as outlined in recommendations one
through four is not taken to assure the accuracy of the information provided, ETA
will most probably get what it has been getting since 1999; i.e., inaccurate,
incomplete information. The recommendations are unresolved.

Finding 2: ETA does not ensure the states properly handle the proceeds
from disposing of SWA properties with DOL equity.

All four states audited either used proceeds from sale of DOL equity property to
speed up the amortization of other properties or held the proceeds for extended
periods with no plans for procuring/building replacement properties. Neither of
these conditions complies with applicable regulations and ETA guidance.

Title 29 Code of Federal Regulations, Part 97 (29 CFR 97) -- the “Common Rule”
-- provides the administrative requirements for Federal grants administered by
state governments. 29 CFR 97.5 provides that the Common Rule superseded
existing ETA regulations and other issuances that were inconsistent with
Common Rule provisions. ETA stated in its General Administration Letter (GAL)
No. 5-94 that all acquisitions of real property after September 30, 1988, had to be
specifically approved by DOL, “for approval of continued amortization
arrangements.”

Further, GAL 5-94 stated that DOL relies exclusively on 29 CFR 97.31(c) to
protect its equity interests in SWA real property. Consequently, SWAs must
request disposition instructions from the DOL regional office in accordance with
29 CFR 97.31(c) when SWA real property with DOL equity is no longer needed
for the originally authorized purposes. According to GAL 5-94:

       In accordance with 29 CFR 97.31(c), DOL will generally honor a state’s
       request to either compensate DOL for its equity or to replace the property
       with other property, using the proceeds from the disposition of the vacated
       property as an offset to the cost of the replacement property “with
       respective equities transferred to the replacement property.”

       The grantee’s request to DOL for disposition instructions is to be
       accompanied by a plan for both disposing of the property to be replaced
       and acquiring the replacement property. The replacement property must
       be obtained in accordance with DOL disposition instructions.


DOL Has Not Maintained Accountability Over                                           9
Equity In Real Property Held By States
Report No.: 06-04-002-03-325
U.S. Department of Labor – Office of Inspector General



        The proceeds resulting from the disposition of real property should be
        immediately used in the acquisition of the replacement property. ETA
        suggested that DOL would permit retention of the proceeds in an escrow
        account until the end of the Federal fiscal year in which disposition of the
        subject property occurred. However, ETA provided:

           In the event that circumstances prevent the replacement to
           be made within the approved time frame, the State may
           request an extension from DOL. If the approved plan is
           not being implemented, then there is no replacement.
           [Emphasis added.]

        Proceeds from the disposition of real property may not be used to
        accelerate the amortization of Reed Act or other fund sources used
        to acquire other real property.

Georgia, Texas, and Utah still had DOL equity cash on hand at the time of our
fieldwork without specific plans for transferring the equity to replacement
properties. California obtained ETA approval to use proceeds from the sale of
property to accelerate the amortization of existing real property although the
Common Rule does not provide for such action, and GAL 5-94 specifically
prohibited it.

Georgia

As of the end of our audit fieldwork, the Georgia Department of Labor (GDOL)
still retained $157,133 in Federal equity cash from the sale of three properties
that it has been holding in an escrow account for several years: $50,925 since
1997; $13,788 since 1999; and $92,430 since 2000. GDOL could not provide
evidence of ETA’s approval for holding the funds in the account. The funds were
being held in anticipation of using the proceeds to acquire new property;
therefore, GDOL did not have a replacement plan and did not have approval of
any plan.

Texas

The Texas Workforce Commission (TWC) sold 10 properties with DOL equity
between April 2000 and May 2002 with net proceeds plus interest earnings of
$2.6 million. Texas used over $.9 million for replacement properties and capital
improvements in existing properties. Yet, as of April 30, 2003, Texas still
retained over $1.6 million without specific plans to use these funds for
replacement properties.




10                                          DOL Has Not Maintained Accountability Over
                                            Equity In Real Property Held By States
                                            Report No.: 06-04-002-03-325
                                                  U.S. Department of Labor – Office of Inspector General




               The following schedule shows the status of sales proceeds.

                                                                                           Proceeds
                                                                                          Disbursed
                   Sales          Sales         Sales       Interest as     Amount           as of        Current
  Property         Date           Price       Expense       of 4/30/03     Available        4/30/03       Balance
Galveston          04/26/00    $325,000.00      $3,500.00    $31,067.56    $352,567.56    $352,567.56           $0.00
Lubbock            12/29/00      320,100.00     12,947.50     23,092.97      330,245.47    330,245.47            0.00
Crystal City       12/02/01       44,000.00     12,335.33      1,062.99       32,727.66     32,727.66            0.00
Greenville         12/02/01      175,000.00     11,335.33      4,265.00      167,929.67    167,929.67            0.00
Midland            12/02/01       67,200.00     13,085.33     1,553.42        55,668.09     55,668.09            0.00
Odessa             04/04/02       99,700.00      7,793.69      2,002.10       93,908.41                     93,908.41
Texas City         04/24/02      172,300.00      5,190.00      3,338.68      170,448.68                    170,448.68
Denton             05/03/02      563,290.50     37,330.49      9,094.82      535,054.83                    535,054.83
Eagle Pass         05/06/02      343,412.51      4,665.96      5,829.45      344,576.00                    344,576.00
Houston            05/08/02      522,500.00     36,720.96      8,434.73      494,213.77                    494,213.77
Total                         $2,632,503.01   $144,904.59    $89,741.72   $2,577,340.14   $939,138.45   $1,638,201.69

               TWC expressed its desire to finalize plans for the remaining sales proceeds and
               interest. The problem is that the State wants to invest in properties that can be
               used for WIA One-Stop/ES services; however, the preponderance of cash on
               hand is UI equity cash.

               Utah

               The Utah Department of Workforce Security (UDWS) has retained $84,731
               disposal proceeds ($67,876 Federal equity; $16,855 Reed Act equity) from the
               sale of two properties in 1997 and 1999.

               In 1997, UDWS received ETA’s approval to dispose of properties with DOL
               equity in Price (sold October 1997) and Blanding (sold September 1999). The
               Price property had a combination of DOL and Reed Act equity; the Blanding
               property had only DOL equity. ETA approved the transfer of equity in both
               properties to a new building to be constructed in Clearfield. However, UDWS
               funded the Clearfield construction with State funds; i.e., UDWS did not use any of
               the disposition proceeds from Price and Blanding for the Clearfield property.

               ETA approved the Price property disposition assuming that the sales proceeds
               would be used to construct a building in Clearfield. ETA’s approval letter
               provided instructions for returning $5,503 of the Price property sales proceeds to
               the Reed Act account with the $16,855 balance of the Reed Act equity
               transferred to the newly-constructed Clearfield building. UDWS properly
               deposited the $5,503 in the State of Utah Unemployment Trust Fund account
               upon the sale of the Price office. However, when the State used other State
               funds for the Clearfield construction, UDWS failed to deposit the remaining
               $16,855 of Reed Act equity in its Reed Act account.



               DOL Has Not Maintained Accountability Over                                                11
               Equity In Real Property Held By States
               Report No.: 06-04-002-03-325
U.S. Department of Labor – Office of Inspector General



While UDWS did not use the sales proceeds for the Clearfield construction as
ETA approved, it did use some of the proceeds to acquire two lots for the Logan
Employment Center. The $67,876 balance of the proceeds was still being held
by UDWS without further instructions from ETA. UDWS requested replacement
disposition instructions from ETA in September 2000 but as of February 2003
ETA had not responded to the State’s request.

California

The California Employment Development Department (CEDD), with ETA’s
approval, used the proceeds from the sale of several properties to accelerate the
amortization of the cost of already existing properties. ETA approved CEDD’s
use of proceeds from the 1995 sale of property in Los Angeles ($2,623,062) and
1998 sale of property in Long Beach ($525,136) to accelerate amortization of
Reed Act funds in existing properties. CEDD also used proceeds from the sale
of properties in Oakland ($331,497) and Indio ($58,676 + $65,330 interest) after
September 2001 (the end of our audit period) to accelerate amortization of Reed
Act funds in the same existing properties. The Los Angeles and Long Beach
property sales are discussed in detail below.

In 1989 CEDD obtained ETA’s approval to sell a Los Angeles property and use
the proceeds for replacement properties. However, because CEDD had a
difficult time selling the Los Angeles property, CEDD used direct DOL grant funds
– in lieu of Reed Act or other non-Federal funds -- to purchase three new
properties (Riverside in 1993, El Centro in 1994, and Indio in 1994). In April
1994, ETA reported that CEDD had violated its total spending limitation by using
grant funds to purchase these properties. As a result, in October 1994, CEDD
proposed to repay the improperly spent grant funds with Reed Act funds; ETA
accepted the proposal.

CEDD finally sold the Los Angeles property in December 1995 -- almost 2 years
after the Riverside, El Centro, and Indio properties were purchased -- on a 10-
year installment sale. CEDD submitted to ETA a revised disposition plan to use
the Los Angeles annual installment sales proceeds to amortize the Reed Act
funds that were used to repay grant funds improperly used to purchase the
Riverside, El Centro, and Indio properties. Because ETA, in 1989, or 6 years
earlier, had originally approved the use of the Los Angeles property sales
proceeds to purchase replacement properties, ETA allowed CEDD to apply the
annual installment sales proceeds to amortize the costs of the Riverside, El
Centro, and Indio properties that were purchased in 1993 and 1994 and for which
annual amortization schedules were in place to use current and future grant
funds to pay annual space costs.

CEDD also sold its Long Beach property in 1998 and requested ETA’s approval
-- which was granted -- to use the sales proceeds to again accelerate the
amortization of the cost of the El Centro, Indio, and Riverside properties. ETA
12                                          DOL Has Not Maintained Accountability Over
                                            Equity In Real Property Held By States
                                            Report No.: 06-04-002-03-325
                                 U.S. Department of Labor – Office of Inspector General



approved the request in November 1998 without apparently considering the fact
that the three properties had been purchased in 1993 and 1994, or 4 to 5 years
prior to the sale of the Long Beach property. These properties could not logically
be considered replacement properties.

When the Los Angeles 10-year term sale was paid off early, ETA approved the
State’s request to use the entire sales proceeds to again accelerate amortization
of the El Centro, Indio, and Riverside properties; thereby, allowing the State to
use sales proceeds to pre-pay future years’ grant costs. However, since the
remaining proceeds from the paid off Los Angeles term sale were then being
used to again accelerate amortization of the three properties, ETA requested
details from CEDD regarding how the Long Beach proceeds would be used. The
State did not provide any documentation that CEDD responded to ETA’s request.
However, audit evidence shows that the proceeds from the sale of the Long
Beach property were used to accelerate amortization of the Indio and Riverside
properties.

CEDD did not agree with the OIG that proceeds from the Los Angeles and Long
Beach sales were used to accelerate amortization on existing properties.
However, the State indicated CEDD “used proceeds in lieu of granted funds
according to an existing amortization schedule through June 2002.” [Emphasis
added.] Therefore, the State corroborated that rather than using appropriated
grant funds to pay its monthly/annual amortization costs (i.e., annual operating
space costs), it used sales proceeds to accelerate amortization on the properties
(i.e., proceeds from the 1995 Los Angeles and 1998 Long Beach property sales
were used to prepay scheduled amortization costs through June 2002).

CEDD also sold an Indio property in 1999, held the proceeds for over 3 years,
then in January 2003, used the proceeds to accelerate amortization (i.e., acquire
additional DOL equity) in three properties: El Centro, Riverside, and Los Angeles.
Although CEDD had ETA-approved amortization agreements for these three
properties, from October 2000 through January 2003, CEDD stopped amortizing
the properties’ costs during that period because “[C]EDD decided to spend its
grant monies on staffing and other program costs, and to temporarily delay
planned amortization payments.” [Emphasis added.]

In January 2003, CEDD used the 1999 Indio sales proceeds, including interest
earned on sales proceeds, to recoup prior period (October 2000 through January
2003) space costs for these properties that were not previously recovered
because of budget restraints.

Office of Management and Budget (OMB) Circular No. A-87, Cost Principles for
State, Local and Indian Tribal Governments, Attachment A, paragraph C.3.c
states:




DOL Has Not Maintained Accountability Over                                           13
Equity In Real Property Held By States
Report No.: 06-04-002-03-325
U.S. Department of Labor – Office of Inspector General



         Any cost allocable to a particular Federal award or cost objective
         under the principles provided for in this Circular may not be
         charged to other Federal awards to overcome fund deficiencies,
         to avoid restrictions imposed by law or terms of the Federal
         awards, or for other reasons. . . .

By using sales proceeds from the Indio property to pay otherwise allowable costs
for prior periods, the State has used the Federal share of sales proceeds to
supplement its Federal appropriated funds to pay operating costs for prior
periods. The State failed to provide any evidence that CEDD requested ETA’s
permission to retain the funds for over 3 years or to use the funds to recover prior
period amortization costs of existing properties.

29 CFR 97.31(c)(1) provides that the sales proceeds can be used as an “offset to
the cost of the replacement property” for the same program. ETA recognizes
that the offset provision allows property equity obtained through the use of
properly appropriated, already expended grant funds to be used to benefit the
same program in future years. Consequently, ETA routinely allows states to
transfer equity into replacement properties. However, ETA also recognizes that
proceeds cannot be used to pay annual space costs or to prepay future years’
space costs because ETA’s GAL No. 5-94 prohibits the use of sales proceeds to
“accelerate the amortization of Reed Act or other fund sources used to acquire
other real property.”

By allowing the State to use sales proceeds to pay annual space costs, ETA
effectively supplanted the grant allocation process by increasing the amount of
funds available to the State to pay annual operating costs, future operating costs,
and retroactively paying prior period costs that were not claimed in the applicable
fiscal year due to funding limitations.

------------------------------------------------------------------------------------------------------------

If ETA allows states to keep DOL’s share of sales proceeds for extended periods
of time without reasonable replacement plans and use sales proceeds for
accelerating the amortization for existing properties, the states are being allowed
to circumvent the Common Rule requirement to either use the sales proceeds to
obtain replacement property or else remit the net amount to ETA for redeposit to
the U.S. Treasury.




14                                                    DOL Has Not Maintained Accountability Over
                                                      Equity In Real Property Held By States
                                                      Report No.: 06-04-002-03-325
                                 U.S. Department of Labor – Office of Inspector General



Recommendations:

In addition, we recommend ETA monitor states’ compliance with applicable
requirements by implementing procedures to ensure states holding DOL equity
cash from SWA real property dispositions:

   5. are identified;
   6. submit the funds to ETA for deposit to the U.S. Treasury, as required,
      unless ETA has documented approval of specific state plans for using the
      proceeds for bona fide replacement property in a reasonable timeframe
      and that will ensure ETA can monitor states’ handling of future sales
      proceeds from SWA property dispositions;
   7. do not use any DOL equity cash from property sales to accelerate
      amortization of properties with existing amortization schedules; and
   8. do not use any DOL equity cash to recover prior period space costs not
      recovered in accordance with existing amortization schedules because of
      a SWA’s decision to use its grant funds for other purposes and delay
      amortization of its space costs because of budget limitations.

ETA’s Response:

ETA did not specifically address our recommendations.

Auditor’s Conclusion:

As ETA did not specifically address the recommendations, the recommendations are
unresolved.




Elliot P. Lewis
Assistant Inspector General
    for Audit

January 31, 2004




DOL Has Not Maintained Accountability Over                                           15
Equity In Real Property Held By States
Report No.: 06-04-002-03-325
       U.S. Department of Labor – Office of Inspector General




                                                          Exhibit A-1
                                Comparison of California OIG-OA Amounts with ETA’s Inventory
                                                  As of September 30, 2001
       Property                  OIG          ETA          Difference                         Explanation
Bakersfield Local Office        $ 512,817    $ 470,348         $ 42,469 The reason for the difference is unknown.
1924 Q St.
Chico Local Office                  49,491          248,275      (198,784) OIG’s calculation of equity initially consisted of
240 W. 7th St.                                                             $94,913 of the original $135,452 cost plus a $76,681
                                                                           improvement. Total cost of the property equaled
                                                                           $212,133. ETA resolved the 1996 OIG Audit by
                                                                           transferring some of the equity out of this property
                                                                           based on reduced Federal occupancy. The new
                                                                           equity percentage changed to 23.33 percent , and the
                                                                           new equity amount changed to $49,491. ETA’s
                                                                           database includes the $171,594 previous equity,
                                                                           which includes the $76,681 improvement. It also
                                                                           includes the $76,681 again as a separate equity
                                                                           listing for a total of $248,275.
Eureka Local Office             1,750,871         1,706,028         44,843 The difference is the amount of pre-1983 funds ETA
409 K St.                                                                  omitted from its database. The funds were for the cost
                                                                           of an improvement.
Fresno                          1,116,251                  0     1,116,251 ETA’s inventory shows $0 DOL equity although this
2555 Elm St.                                                               property was included in the 1997 OIG audit.

Inglewood Local Office          2,704,354         1,437,153      1,267,201 The difference results from ETA omitting UI grant funds
4540 W. Century Blvd.                                                      ($494,208), and ES funds ($772,992) from its
                                                                           database.




       16                                          DOL Has Not Maintained Accountability Over
                                                   Equity In Real Property Held By States
                                                   Report No.: 06-04-002-03-325
                                       U.S. Department of Labor – Office of Inspector General


                                                       Exhibit A-1
                             Comparison of California OIG-OA Amounts with ETA’s Inventory
                                               As of September 30, 2001
      Property                OIG          ETA          Difference                         Explanation
Merced Local Office          2,059,311    1,670,498         388,813 ETA resolved OIG’s 1996 audit by transferring equity
1205 W. 18th St.                                                    from properties with less occupancy than equity into
                                                                    this property. The new equity percentage changed to
                                                                    95.47 percent, and the new equity amount changed to
                                                                    $2,059,311 ($2,157,024 * 95.47%).
Modesto Local Office        $1,373,979   $1,325,689         $48,290 The difference results because: (1) EDD reported
629 12th St.                                                        $1,001 less in property costs in 2001 than in 1996; and
                                                                    (2) OIG learned there was less Federal occupancy in
                                                                    other properties than Federal equity in the 1996 audit.
                                                                    ETA resolved the audit by transferring additional equity
                                                                    into this property. The new equity percentage changed
                                                                    to 100 percent, and the new equity amount changed to
                                                                    $1,373,979 ($1,373,979 * 100%).
Oakland Local Office         2,839,305    4,095,594     (1,256,289) The difference results because EDD’s documents
1225 4th Avenue                                                     show $1,385,000 in Reed Act funds were used to help
                                                                    finance the cost of a renovation. EDD’s 2001
                                                                    documents show none of these funds have been
                                                                    amortized. ETA’s database shows $1,256,289 of
                                                                    these Reed Act Funds as amortized, which leaves an
                                                                    unamortized Reed Act funds balance totaling $128,711
                                                                    (Total cost to be amortized $3,571,250 minus total
                                                                    amortization $3,442,539).




      DOL Has Not Maintained Accountability Over                                           17
      Equity In Real Property Held By States
      Report No.: 06-04-002-03-325
       U.S. Department of Labor – Office of Inspector General


                                                          Exhibit A-1
                                Comparison of California OIG-OA Amounts with ETA’s Inventory
                                                  As of September 30, 2001
       Property                  OIG          ETA          Difference                          Explanation
Redding Local Office              470,223      391,556          78,667 The difference results from two reasons: (1) EDD
1301 Pine St.                                                          documents show $990 less in Federal equity than ETA
                                                                       entered in its database; and (2) ETA transferred some
                                                                       of the equity into this property from properties identified
                                                                       as having less Federal occupancy than Federal equity
                                                                       in the 1996 OIG audit. The new equity percentage
                                                                       changed to 97.88 percent, and the new equity amount
                                                                       changed to $470,223 ($480,408 * 97.88%).
Riverside                       2,429,787             0      2,429,787 Property is not on ETA’s inventory although it was
1180 Palmyrita                                                         included in the 1997 OIG report.
Riverside                        $206,612            $0       $206,612 ETA’s database shows Federal equity valued at $0 for
1190 Palmyrita                                                         this property. ETA resolved OIG’s 1996 Real Property
                                                                       Audit finding by transferring some of the equity dollars
                                                                       based on appraisals out of the property into four other
                                                                       properties. The new equity percentage changed to 7.5
                                                                       percent based on occupancy and the new equity
                                                                       amount is estimated as $206,612 ($2,754,833 * 7.5%).
                                                                       Subsequently, EDD reduced the property cost to
                                                                       $2,754,833 from the 1996 cost of $2,854,633.
Sacramento                      2,699,069             0      2,699,069 Property is not on the ETA inventory. Federal equity
751 “N” St.                                                            was transferred out in 1991. Subsequently, EDD
                                                                       added a HVAC system paid solely by UI funds with
                                                                       ETA approval. EDD claims staff occupying the building
                                                                       are 43.6 percent UI-funded and 12.8 percent ES-
                                                                       funded.
Salinas Local Office                    0      369,823       (369,823) The difference is as a result of the State giving this
346 Front St.                                                          property to the City of Salinas via Federal
                                                                       appropriations.
       18                                          DOL Has Not Maintained Accountability Over
                                                   Equity In Real Property Held By States
                                                   Report No.: 06-04-002-03-325
                                        U.S. Department of Labor – Office of Inspector General


                                                        Exhibit A-1
                              Comparison of California OIG-OA Amounts with ETA’s Inventory
                                                As of September 30, 2001
       Property                OIG          ETA          Difference                          Explanation
San Bernardino Local                  0      173,031       (173,031) The difference results because ETA transferred the
Office                                                                equity from this property into other properties as a
371 W. 3rd                                                            result of the 1996 OIG Real Property Audit when OIG
                                                                      discovered there was less Federal occupancy in this
                                                                      property than Federal equity. The new equity
                                                                      percentage changed to 0 percent and the new equity
                                                                      amount changed to $0.
San Francisco Local           2,414,914    2,415,208            (294) The difference is the result of ETA entering $72,061
Office                                                                less of UI grant funds in its database than EDD shows
745 Franklin St.                                                      in its documents (EDD $1,394,322 – $1,322,261 ETA)
                                                                      and $72,355 more of ES grant funds than EDD shows
                                                                      in its documents (ETA $167,355 – $95,000 EDD).
Santa Rosa Local Office      $1,015,286     $508,796        $506,490 The difference is the result of ETA transferring some of
419 Tenth                                                             the equity from properties identified in the 1996 OIG
                                                                      audit as having less Federal occupancy than Federal
                                                                      equity into this property. The new equity percentage
                                                                      changed to 100 percent and the new equity amount
                                                                      changed to $1,015,286 ($1,015,286 * 100%).
Vallejo Local Office            368,038      350,533          17,505 The difference is a result of ETA entering $311,413
1440 Marin St.                                                        and $39,120 as amortization instead of $311,444 and
                                                                      $56,594 as reflected on EDD’s documents.
Grand Total                 $22,010,308  $15,162,532      $6,847,776




       DOL Has Not Maintained Accountability Over                                           19
       Equity In Real Property Held By States
       Report No.: 06-04-002-03-325
      U.S. Department of Labor – Office of Inspector General




                                                       Exhibit A-2
                                Comparison of Georgia OIG-OA Amounts with ETA’s Inventory
                                                As of September 30, 2001
         Property                    OIG           ETA        Difference                     Explanation
Albany Local Office                   $915,731 $1,109,128       ($193,397) GDOL2000 certification reported amortization
1006 Slappey Blvd.                                                         amount of $1,109,128 of which $915,731 was
                                                                           Federal and $193,397 was state. ETA
                                                                           recorded the entire amount of $1,109,128 as
                                                                           Federal ($915,731 as UI and $193,397 as ES).
Americus Local Office                  116,410            0        116,410 GDOL’s 2000 certification erroneously reported
120 W. Church St.                                                          $165,000 in Federal equity. The correct
                                                                           amount is $116,410. Nevertheless, ETA did
                                                                           not record any Federal equity.
Atlanta Central Office              16,514,549    7,793,607      8,720,942 The difference is the amount of transferred in
148 International Blvd.                                                    Federal equity of $8,510,900 plus estimated
                                                                           amortization of $210,042 for the period of
                                                                           7/1/01 through 9/30/01.
Augusta Local Office                   506,369      289,643        216,726 GDOL’s 2000 certification erroneously reported
601 Green St.                                                              the $216,726 as state amount of amortization.
Brunswick Local Office                 824,132            0        824,132 Property is not on ETA inventory. This property
2517 Tara Lane                                                             was included in the 1997 OIG report.
Carrollton Local Office                634,529            0        634,529 Property is not on ETA inventory. This property
275 Northside Dr.                                                          was included in the 1997 OIG report.
Clayton Local Office                   558,511      721,235     ($162,724) GDOL’s 2000 certification reported amortization
1193 Forest Parkway                                                        amount of $721,235 of which $558,511 was
                                                                           Federal and $162,724 was state. ETA
                                                                           recorded the entire amount of $721,235 as
                                                                           Federal ($558,511 as UI and $162,724 as ES).
Columbus Local Office                1,011,647            0      1,011,647 Property is not on ETA inventory. This property
700 Fourth Ave.                                                            was included in the 1997 OIG report.
      20                                          DOL Has Not Maintained Accountability Over
                                                  Equity In Real Property Held By States
                                                  Report No.: 06-04-002-03-325
                                       U.S. Department of Labor – Office of Inspector General


                                                     Exhibit A-2
                              Comparison of Georgia OIG-OA Amounts with ETA’s Inventory
                                              As of September 30, 2001
         Property                  OIG            ETA       Difference                      Explanation
Covington Local Office             $370,224      $465,861      ($95,637) GDOL’s 2000 certification reported amortization
7249 Industrial Blvd.                                                    amount of $465,861 of which $370,224 was
                                                                         Federal and $95,637 was state. ETA recorded
                                                                         the entire amount of $465,861 as Federal
                                                                         ($370,224 as UI and $95,637 as ES.)
Douglas Local Office                 100,829            0        100,829 GDOL’s 2000 and 2001 certifications were not
310 W. Bryan St.                                                         completed for this property. However, the
                                                                         GDOL “Equity in Buildings as of 6/30/01” report
                                                                         shows the Federal equity is $100,829. DOL’
                                                                         inventory does not show this property.
Dublin Local Office                  186,144      276,314      ($90,170) GDOL’s 2000 certification shows $276,314 as
910 N. Jefferson St.                                                     the amount amortized, without a breakout
                                                                         between Federal and state amounts. ETA
                                                                         apparently recorded the entire amount as
                                                                         Federal amortization. However, the GDOL
                                                                         “Equity in Buildings as of 6/30/00” shows
                                                                         $186,144 as Federal amortization and $90,170
                                                                         as state amortization.
Griffin Local Office                 562,473      462,466        100,007 GDOL’s 2000 certification reported $360,873
1514 Highway 16 West                                                     as Federal amortization, and $201,600 as
                                                                         transferred in Federal equity (therefore, Federal
                                                                         amortization is $562,473) and $101,593 as
                                                                         state amortization. These figures agree with
                                                                         the GDOL”Equity in Building as of 6/30/00”.
                                                                         Apparently, ETA combined the Federal and
                                                                         State amortization amounts as Federal and
                                                                         ignored the transferred in Federal equity when
                                                                         updating its inventory


      DOL Has Not Maintained Accountability Over                                           21
      Equity In Real Property Held By States
      Report No.: 06-04-002-03-325
      U.S. Department of Labor – Office of Inspector General


                                                       Exhibit A-2
                                Comparison of Georgia OIG-OA Amounts with ETA’s Inventory
                                                As of September 30, 2001
          Property                   OIG            ETA       Difference                     Explanation
Gwinnett Local Office                 $496,196     $577,627      ($81,431) GDOL’s 2000 certification reported amortization
1355 Atkinson Road                                                         of $577,627 of which $496,196 was Federal
                                                                           and $81,431 was state. ETA recorded the
                                                                           entire amount of $577,627 as Federal
                                                                           ($496,196 as UI and $81,431 as ES).
Savannah Local Office                1,356,928    1,638,738      (281,810) GDOL’s 2000 certification reported amortization
5520 White Bluff Rd.                                                       of $1,638,738 of which $1,356,928 was Federal
                                                                           and $281,810 was state. ETA recorded the
                                                                           entire amount of $1,638,738 as Federal
                                                                           ($1,356,928 as UI and $281,810 as ES).
Valdosta Local Office                  150,150            0        150,150 Property is not on ETA inventory. This property
2808 N. Oak St.                                                            was included in the 1997 OIG report.
Grand Total                        $24,304,822 $13,334,619 $10,970,203




      22                                          DOL Has Not Maintained Accountability Over
                                                  Equity In Real Property Held By States
                                                  Report No.: 06-04-002-03-325
                                             U.S. Department of Labor – Office of Inspector General




                                                           Exhibit A-3
                                   Comparison of Texas OIG-OA Amounts with ETA’s Inventory7
                                                   As of September 30, 2001
          Property                       OIG              ETA       Difference                 Explanation
Bryan                                      $470,501      $315,085     $155,416 ETA had not updated equity amounts
                                                                                subsequent to prior OIG audit as of 9/30/96
Corpus Christi                              548,769       470,003        78,766 ETA had not updated equity amounts
                                                                                subsequent to prior OIG audit as of 9/30/96
Conroe                                      706,907       583,948      122,959 ETA had not updated equity amounts
                                                                                subsequent to prior OIG audit as of 9/30/96
Brownwood                                   482,407       429,640       52,767 ETA had not updated equity amounts
                                                                                subsequent to prior OIG audit as of 9/30/96
Denton                                      700,663       607,242       93,421 ETA had not updated equity amounts
                                                                                subsequent to prior OIG audit as of 9/30/96
Longview                                    471,656       449,125       22,531 ETA had not updated equity amounts
                                                                                subsequent to prior OIG audit as of 9/30/96
Greenville                                  335,687       318,901       16,786 ETA had not updated equity amounts
                                                                                subsequent to prior OIG audit as of 9/30/96
Paris                                       644,000       531,727      112,273 ETA had not updated equity amounts
                                                                                subsequent to prior OIG audit as of 9/30/96
Mt. Pleasant                                544,588       393,110      151,478 ETA had not updated equity amounts
                                                                                subsequent to prior OIG audit as of 9/30/96
Denison/Sherman                             731,530       450,176      281,354 ETA had not updated equity amounts
                                                                                subsequent to prior OIG audit as of 9/30/96
McKinney                                    296,224       141,671      154,553 ETA had not updated equity amounts
                                                                                subsequent to prior OIG audit as of 9/30/96


    7
     Fifty-nine TWC properties had DOL equity and six (lease purchase) properties have potential DOL equity. Since the 1997 OIG audit was used to
    update the ETA inventory; the only TWC properties listed are those where there was a difference in equity amounts based on amortization between
    9/30/96 and 9/30/01.
    DOL Has Not Maintained Accountability Over                                                              23
    Equity In Real Property Held By States
    Report No.: 06-04-002-03-325
   U.S. Department of Labor – Office of Inspector General


                                                     Exhibit A-3
                              Comparison of Texas OIG-OA Amounts with ETA’s Inventory7
                                              As of September 30, 2001
           Property                 OIG             ETA       Difference                Explanation
Temple                                 847,351       500,708     346,643 ETA had not updated equity amounts
                                                                         subsequent to prior OIG audit as of 9/30/96
Bay City                               813,670       350,418     463,252 ETA had not updated equity amounts
                                                                         subsequent to prior OIG audit as of 9/30/96
Brownsville                         $1,032,097     $406,585     $625,512 ETA had not updated equity amounts
                                                                         subsequent to prior OIG audit as of 9/30/96
Houston                                402,472        55,899     346,573 ETA had not updated equity amounts
                                                                         subsequent to prior OIG audit as of 9/30/96
Waxahachie                             667,844       287,090     380,754 ETA had not updated equity amounts
                                                                         subsequent to prior OIG audit as of 9/30/96
Marshall                               606,537       252,119     354,418 ETA had not updated equity amounts
                                                                         subsequent to prior OIG audit as of 9/30/96
Total                              $10,302,903 $6,543,447 $3,759,456




   24                                          DOL Has Not Maintained Accountability Over
                                               Equity In Real Property Held By States
                                               Report No.: 06-04-002-03-325
                                 U.S. Department of Labor – Office of Inspector General




                                              Exhibit A-4
                        Comparison of Utah OIG OA Amounts with ETA’s Inventory
                                       As of September 30, 2001
            Property              OIG          ETA        Difference               Explanation
Cedar City Employment Center     $659,271      $628,365        $30,906 Charges to UI/WP totaled
                                                                       $734,646 as of April 2000. We
                                                                       calculated that 89.74% of the
                                                                       amortization related to real
                                                                       property based on the furnishings
                                                                       included, ((i.e. $886,501 less
                                                                       $90,991 for furnishings).
Clearfield/Davis County           652,792       680,249       (27,457) The building and land costs are
Employment Center                                                      amortized separately. The
                                                                       $585,572 building cost was fully
                                                                       amortized as of March 1997 from
                                                                       $420,207 in WP funds and
                                                                       $165,365 in Title III grant funds
                                                                       used in bldg. construction. The
                                                                       total charges for land as of 9/30/01
                                                                       is $67,220.
Logan Employment Center           588,822       404,918        183,904 The original property acquisition
                                                                       was fully amortized as of February
                                                                       1985. But an HVAC purchased in
                                                                       2000 and proceeds from the sale
                                                                       of the Price local office used to
                                                                       purchase a Logan parking lot in
                                                                       October 2000 were not added to
                                                                       the ETA inventory.




DOL Has Not Maintained Accountability Over                                           25
Equity In Real Property Held By States
Report No.: 06-04-002-03-325
U.S. Department of Labor – Office of Inspector General


                                             Exhibit A-4
                       Comparison of Utah OIG OA Amounts with ETA’s Inventory
                                      As of September 30, 2001
           Property              OIG          ETA        Difference               Explanation
Ogden Employment Center        1,532,329     1,528,241          4,088 The building and land costs are
                                                                      amortized separately. The
                                                                      building amortization was
                                                                      completed in October 1999. The
                                                                      total charges for land as of 9/30/01
                                                                      is $122,783. The amount
                                                                      remaining to be amortized from
                                                                      10/01/01 to 10/3/02 is $12,688.78.
                                                                      The amount to be allocated as
                                                                      UI/WP equity is unknown.
Provo Employment Center       $1,856,682    $1,566,552      $290,130 UDWSA fully amortized the
                                                                      $290,130 cost of the 1990
                                                                      remodeling from May 1990
                                                                      through March 1992. UDWS left
                                                                      an unamortized balance in the
                                                                      Reed Act account of $208,343.
Richfield Employment Center      307,785       305,852          1,933 We calculated that 89.25% of the
                                                                      amortization (i.e. $438,000 total
                                                                      recorded long-term liability less
                                                                      $47,088 for furnishings) related to
                                                                      real property. Amortization of real
                                                                      property, therefore, totals
                                                                      $307,785.




26                                          DOL Has Not Maintained Accountability Over
                                            Equity In Real Property Held By States
                                            Report No.: 06-04-002-03-325
                                 U.S. Department of Labor – Office of Inspector General


                                               Exhibit A-4
                         Comparison of Utah OIG OA Amounts with ETA’s Inventory
                                        As of September 30, 2001
           Property                OIG          ETA        Difference               Explanation
Vernal Employment Center           239,587       226,999         12,588 UDWS began amortizing the
                                                                        $716,820 cost of the addition in
                                                                        July 2000. The quarterly payment
                                                                        for the bond issuance is
                                                                        $19,453.25. As of 9/30/01,
                                                                        $12,588 had been allocated to
                                                                        UI/WP as its share of the Vernal
                                                                        space costs under the 7/1/97
                                                                        implemented cost allocation plan.
St. George Employment Center       835,322       698,171        137,151 UDWS completed amortization in
                                                                        August 1998 for the $903,109
                                                                        acquisition cost. UDWS amortized
                                                                        the property with UI/WP funds until
                                                                        6/30/97 at $7,672 a month for a
                                                                        total of $797,921. As of 7/1/97 the
                                                                        allocation to UI/WP funding for its
                                                                        share of space costs varied with
                                                                        the implementation of a cost
                                                                        allocation plan. The UI/WP
                                                                        allocated share of the space costs
                                                                        from 7/1/97 to 9/30/01 was
                                                                        $37,401. Total UI/WP
                                                                        amortization is therefore,
                                                                        $835,322.
Salt Lake City Temporary          $295,255            $0      $295,255 Property is not on the ETA
Placement Office                                                        inventory. State concurs with this
                                                                        DOL equity that was included in
                                                                        our 1997 audit report.


DOL Has Not Maintained Accountability Over                                           27
Equity In Real Property Held By States
Report No.: 06-04-002-03-325
U.S. Department of Labor – Office of Inspector General


                                                Exhibit A-4
                          Comparison of Utah OIG OA Amounts with ETA’s Inventory
                                         As of September 30, 2001
           Property                 OIG          ETA        Difference               Explanation
Salt Lake City Administration     5,239,532              0     5,239,532 Property is not on the ETA
Building                                                                 inventory. State contends no DOL
                                                                         equity exits. OIG disagrees since
                                                                         DOL funds were used to amortize
                                                                         financing bond payments.
Salt Lake City Metro              1,453,011              0     1,453,011 Property is not on the ETA
Employment Center                                                        inventory. State contends no DOL
                                                                         equity exits. OIG disagrees since
                                                                         DOL funds were used to amortize
                                                                         financing bond payments.
South Salt Lake County            1,017,108              0     1,017,108 Property is not on the ETA
Employment Center                                                        inventory. State contends no DOL
                                                                         equity exits. OIG disagrees since
                                                                         DOL funds were used to amortize
                                                                         financing bond payments.
Grand Total                     $14,677,496    $6,039,347     $8,638,149




28                                          DOL Has Not Maintained Accountability Over
                                            Equity In Real Property Held By States
                                            Report No.: 06-04-002-03-325
                                      U.S. Department of Labor – Office of Inspector General




                                                                               Appendix A

BACKGROUND
Nearly all State Workforce Agencies (SWAs) have purchased real properties for
use in administering their Employment Security program.8 Initially, these
properties are purchased/constructed with non-Federal funds – generally, Social
Security Act (SSA), Title IX (Reed Act) funds; state UI penalty and interest (P&I)
funds; or, state bond issues. The DOL has accumulated equity in these
properties over the years because SWAs have recouped the cost of these
properties by monthly amortizing the properties’ acquisition costs against SSA,
Title III (UI) and Wagner-Peyser, Employment Service (ES) grants. DOL also
has accumulated equity through the direct use of UI/ES grant funds to pay
monthly lease payments for lease-purchase properties that SWAs obtain title to
when the lease is finalized.

29 CFR, Part 97.31, provides that when state properties with DOL equity are no
longer used for program purposes, the properties should be disposed of and the
disposition proceeds must be returned to DOL, or used for approved replacement
properties, in the proportion that DOL grant funds participated in the real
properties’ acquisition costs.

The Government Accountability Office designated Federal real property as a
high-risk area in January 2003. On February 4, 2004, the President issued
Executive Order 13327, “Federal Real Property Asset Management.” In
conjunction with the Executive Order, OMB has added an initiative to the
President’s Management Agenda aimed at improving stewardship of Federal real
property assets.

PRIOR AUDIT HISTORY

Two prior OIG audit reports in 1990 and 1997 identified numerous instances of
insufficient ETA oversight of DOL’s equity interest in state-owned real property.
In those audits, we found significant amounts of new acquisitions and
dispositions of real property acquired through charges to ETA grants had not
been accounted for properly. Subsequent to our 1990 audit report that compiled
DOL’s equity as of September 30, 1988, ETA established an inventory of DOL
equity in SWA real property using data from the audit. In the 1997 report, we
questioned a total of $8 million in grant costs in 53 individual state9 reports.



8
 Comprised of the Employment Service (ES) and Unemployment Insurance (UI) programs.
9
 The terms State Workforce Agency, SWA, or “state” refer to the 50 states, District of Columbia,
Puerto Rico, and the U.S. Virgin Islands.
DOL Has Not Maintained Accountability Over                                                     29
Equity In Real Property Held By States
Report No.: 06-04-002-03-325
U.S. Department of Labor – Office of Inspector General


In general, DOL’s role in SWA real property administration has been limited to
providing policy guidance, determining compliance with applicable requirements,
and approving the use of granted funds for capital expenditures to include the
recapture of equity through amortization agreements. SWAs are responsible for
all actions relating to the acquisition, use, and disposition of real property
acquired with grant funds and Reed Act funds. The SWAs are responsible for
accounting for grant funds used to amortize the cost of SWA real property. No
reporting of DOL equity, by property, was required of states except “as
requested” by ETA.


ETA Reported Corrective Action in Response to Prior Audits

In the OIG’s September 30, 1997, audit report, we reported that:

       For the last 2 years the Office of Inspector General (OIG) reported in the
       Department of Labor (DOL) annual financial statement audits that the
       Employment and Training Administration (ETA) did not maintain sufficient
       accountability over DOL’s equity in [SWA’s] real properties. While ETA
       did establish an inventory based on the OIG’s January 25, 1990, audit
       report that reported DOL’s equity as of September 30, 1988, and has
       made some updates to that inventory, ETA’s inventory has become
       significantly outdated.

After the 1997 audit report was issued:

       ETA committed to improving its accountability for DOL equity in real
       property acquired by state grantees with financial assistance from DOL.

       ETA responded to the 1997 report that responsibility for updating
       individual SWA property records would be transferred to appropriate
       regional office staff.

Further, ETA’s response to the 1997 report stated:

       ETA is willing to accept the OIG finding that $381 million of
       DOL funds had been used as of September 30, 1996, to pay a
       portion of the $711 million acquisition costs of 453 properties.
       This information will be used to establish a new baseline for
       the DOL inventory and will be provided to appropriate regional
       office staff.

Subsequent to this response, ETA centralized responsibility in the national office
for maintaining the inventory. Further, the ETA began a process of obtaining
certification from the states regarding their real property.

30                                          DOL Has Not Maintained Accountability Over
                                            Equity In Real Property Held By States
                                            Report No.: 06-04-002-03-325
                                 U.S. Department of Labor – Office of Inspector General




Since 1997, both the Department and ETA have continued to make commitments
to maintain an updated, accurate inventory of SWA properties with DOL or Reed
Act equity. For example, on April 14, 2000, the DOL Chief Financial Officer
(CFO) and Assistant Secretary for Administration and Management notified the
Senate Chairman of the Committee on Governmental Affairs:

       Through the Department’s audit resolution process, the
       Employment and Training Administration provided an
       appropriate corrective action plan to address [keeping an
       inventory of real properties reasonably current] this issue.
       Responsibility for State Employment Security Agencies’
       property has been centralized in the National Office. This
       spring, the Department will begin the process of obtaining
       certification from the States regarding this property…. Once
       established, the inventory will be maintained on a current
       basis.

They also indicated to the Chairman that concerns and comments raised by the
States, ETA’s employees, the OIG, and the Congress would be considered in
developing new policies and procedures to deal with issues relating to the
accounting and disposition of real property titled to states but in which DOL
retains equity. Further, the commitment was made that, “In the interim, DOL is
committed to updating and certifying property records to ensure that inventory
records are accurate and up-to-date.”

In a January 19, 2001, letter (as part of the reporting process under the Federal
Managers’ Financial Integrity Act and OMB Circular A-123), the Assistant
Secretary for Employment and Training notified the Secretary of Labor that:

       The responsibility for maintaining these [SWA real property
       inventory] records was returned to the national office as part of
       the agency’s recent reorganization. The Office of Financial
       and Administrative Management assumed responsibility for
       maintaining the nationwide data base and obtaining state
       certifications of SWA property holdings. During 2000 the
       system used to account for these property records was
       rewritten and letters were sent to States requesting that they
       certify the information contained on Federal records or provide
       updates…. Given the progress made in improving our record
       keeping, we believe the item is no longer a critical weakness
       and should be closed. . . Maintaining the inventory and
       obtaining these certifications is now done as part of ETA’s
       regular work and should not be a problem in future years.



DOL Has Not Maintained Accountability Over                                           31
Equity In Real Property Held By States
Report No.: 06-04-002-03-325
U.S. Department of Labor – Office of Inspector General


In a February 1, 2001, memorandum the DOL’s Acting CFO provided
management’s response to the OIG’s draft report containing the consolidated
financial statements for the year ended September 30, 2000, including the issue
of SWA real property. The CFO reported:

     In November 1999, the responsibility for maintaining SESA real
     property inventories and obtaining State certifications was
     transferred from the ETA regional offices to the ETA National
     Office. Consequently, the ETA National Office issued a Field
     Memorandum in the Spring of 2000, directing all ETA Regional
     Offices to submit SESA real property acquisition and disposal
     information to the ETA National Office. ETA has indicated that
     receipt of the 53 State certifications of SESA real property
     inventories should be achieved by the end of December 2000.
                    .     .       .      .      .    .      .
     At present, more than 80 percent of the States have certified
     Federal records or provided updates. Most of the remaining States
     have indicated they are in disagreement with our records and are
     working to reconcile them with their own information. A few States
     have not responded and are being sent a second request. If
     responses are not received by mid-year, further actions will be
     considered.

     Maintaining the inventory and obtaining annual certifications is now
     done as part of ETA’s regular work and the [OIG audit] finding
     should be closed.

In April 2001, ETA’s Office of Workforce Security requested the OIG consider the
recent actions taken to close the report’s recommendations. Based on the
representations by the responsible staff that ETA had its inventory up and
running, with all but about ten states entered into the system, OIG closed the
outstanding recommendations on the 1997 audit report in June 2001.




32                                          DOL Has Not Maintained Accountability Over
                                            Equity In Real Property Held By States
                                            Report No.: 06-04-002-03-325
                                 U.S. Department of Labor – Office of Inspector General


                                                                      Appendix B

SCOPE, METHODOLOGY, AND CRITERIA
Scope and Methodology

We reviewed the adequacy of ETA’s management controls by evaluating the
accuracy and completeness of ETA’s property inventory records as of September
30, 2001 and by evaluating the procedures used by ETA to ensure states
handled proceeds from dispositions of real property with DOL equity in
accordance with laws and regulations. Additionally, we followed up on
subsequent events (regarding the four states in our audit) after September 2001
affecting the amount of DOL equity in state real property through the end of our
fieldwork between February 2003 and April 2003. State subsequent events work
was limited to determining what happened to the proceeds from the disposition of
properties after September 30, 2001.

For the States of California, Georgia, Texas, and Utah:

       We compared the physical properties on ETA’s inventory of SWA real
       property as of September 30, 2001, with the 1997 OIG-compiled SWA
       inventory (as of September 30, 1996) to determine if all properties the OIG
       identified in 1997 were accounted for on ETA’s inventory.

       We obtained the real property records as of September 30, 2001, from
       each of the four selected SWAs.

       We reviewed SWA records to identify:
         o any properties on the SWA inventories that were not on either the
             ETA or OIG inventories, and
         o any properties on either the ETA or OIG inventories that were not
             on the SWA inventories.

       We reviewed SWA property and fiscal records to determine what DOL
       equity existed in the reconciled SWA properties. The updated OIG-
       compiled SWA real property inventory, both physical location and DOL
       equity amount, for each of the four states was provided to the SWA for
       review and comment.

       We evaluated state property and financial records to determine what
       happened to the DOL’s share of the proceeds for properties the states
       disposed of.

We conducted our audit in accordance with Government Auditing Standards
issued by the Comptroller General of the United States.

DOL Has Not Maintained Accountability Over                                           33
Equity In Real Property Held By States
Report No.: 06-04-002-03-325
U.S. Department of Labor – Office of Inspector General


Criteria

•    Title 29 Code of Federal Regulations, Part 97 (Common Rule); particularly 29
     CFR 97.31(c)
•    ETA’s General Administration Letter (GAL) 5-94 (Although this GAL has
     expired, GAL 5-94 specifically stated that DOL relies exclusively on 29 CFR
     97.31(c) to protect DOL’s equity interest in SWA real property.)
•    Office of Management and Budget (OMB) Circular No. A-87, Cost Principles
     for State, Local and Indian Tribal Governments, Attachment C, paragraph
     C.3.c.




34                                          DOL Has Not Maintained Accountability Over
                                            Equity In Real Property Held By States
                                            Report No.: 06-04-002-03-325
                                 U.S. Department of Labor – Office of Inspector General


                                                                         Appendix C

ACRONYMS AND ABBREVIATIONS

    CEDD                California Employment Development Department

    CFO                 Chief Financial Officer

    CFR                 Code of Federal Regulations

    DOL                 Department of Labor

    ES                  Employment Service

    ETA                 Employment and Training Administration

    GAL                 General Administrative Letter

    GDOL                Georgia Department of Labor

    OIG                 Office of Inspector General

    OMB                 Office of Management and Budget

    P&I                 Penalty and Interest

    SWA                 State Workforce Agency

    SSA                 Social Security Act

    TWC                 Texas Workforce Commission

    UDWS                Utah Department of Workforce Services

    UI                  Unemployment Insurance

    WP                  Wagner-Peyser




DOL Has Not Maintained Accountability Over                                           35
Equity In Real Property Held By States
Report No.: 06-04-002-03-325
U.S. Department of Labor – Office of Inspector General




                  <THIS PAGE INTENTIONALLY LEFT BLANK>




36                                          DOL Has Not Maintained Accountability Over
                                            Equity In Real Property Held By States
                                            Report No.: 06-04-002-03-325
                                 U.S. Department of Labor – Office of Inspector General


                                                                         Appendix D




      ETA’s RESPONSE TO DRAFT REPORT




DOL Has Not Maintained Accountability Over                                           37
Equity In Real Property Held By States
Report No.: 06-04-002-03-325
U.S. Department of Labor – Office of Inspector General




38                                          DOL Has Not Maintained Accountability Over
                                            Equity In Real Property Held By States
                                            Report No.: 06-04-002-03-325
                                 U.S. Department of Labor – Office of Inspector General




DOL Has Not Maintained Accountability Over                                           39
Equity In Real Property Held By States
Report No.: 06-04-002-03-325
